HHS/OIG, Audit -"University of Maryland Medical Center's Organ Acquisition Costs
for State Fiscal Year 2003,"(A-03-04-00010)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"University of Maryland Medical Center's Organ
Acquisition Costs for State Fiscal Year 2003," (A-03-04-00010)
April 10, 2006
Complete
Text of Report is available in PDF format (1.37 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this self-initiated audit was to determine whether the University of Maryland
Medical Center (Medical Center) complied with Medicare and Maryland laws, regulations, and
guidelines for allocating costs to organ acquisition and for maintaining adequate documentation
to support those costs, and to estimate the effect on Medicare reimbursement for State Fiscal
Year (SFY) 2003 when costs claimed were unallowed or unsupported.  The Medical Center
did not always comply with Medicare laws, regulations, and guidelines for reporting its costs,
including organ acquisition costs, to the Commission.  Specifically, the Medical Center
did not have systems that could allocate organ acquisition costs separately from non-organ
acquisition costs and other hospital activities.  Because the Medical Center did not
properly allocate costs totaling $2,562,132 between organ acquisition and all other cost,
higher organ reimbursement rates resulted.  We estimated that the Medicare portion of
those costs is approximately 40 percent, or $1,024,852.  We recommend that the
Commission ensure that the Medical Center adheres to Medicare laws, regulations, and guidelines
by properly identifying organ acquisition costs in the cost data provided to the Commission.  In
its written comments to our draft report, the Commission, the Medical Center, and the Centers
for Medicare and Medicaid Services concurred with our findings and recommendations.